IN THE

LAWRENCE EDWARD JACKSON, JR.

COURT OF APPEALS
OF MARYLAND

v.

Misc. No. 7
*

STATE OF MARYLAND

September Term, 2020

ORDER
WHEREAS, on August 21, 2009, Petitioner, Lawrence Edward Jackson, Jr., filed
a petition for post-conviction DNA testing in the Circuit Court for Prince George’s County
in Case No. CT021260X, and
WHEREAS, on September 21, 2010, Judge Nicholas E. Rattal denied Mr.
Jackson’s petition, and
WHEREAS, in the ensuing years, Mr. Jackson has filed, pro se, numerous appeals,
petitions for writs of certiorari, applications for leave to appeal, and post-conviction
motions, including petitions for post-conviction DNA testing, in the circuit court, the Court
of Special Appeals, and this Court, and
WHEREAS, on October 27, 2017, Mr. Jackson filed another petition for post­
conviction DNA testing in the circuit court, and
WHEREAS, on July 18, 2019, the State filed an opposition to Mr. Jackson’s
October 27, 2017 petition, and
e.g., "Appendix A,"

WHEREAS, on January 17, 2020, Mr. Jackson filed a “Petition for a Writ of
Mandamus,” in Misc. No. 12al9, requesting that this Court “intervene and direct” the
Circuit Court for Prince George’s County to rule on “Petitioner’s petition for [Maryland
Code (2018) §] 8-201 [of the Criminal Procedure Article (“CP”)] DNA Post Conviction
Confirmatory Re-testing and Analysis on two (2) masks,” and
WHEREAS, this Court took judicial notice of the fact that the circuit court docket
entries in Case No. CT021260X indicated that on February 6, 2020, Petitioner’s pending
petition for post-conviction DNA testing filed in the circuit court was reassigned to Judge
Michael R. Pearson for a ruling, and
WHEREAS, the Court considered the “Petition for a Writ of Mandamus” and the
circuit court docket entries and, on February 28, 2020, denied Mr. Jackson’s petition, and

WHEREAS, on August 20, 2020, Mr. Jackson filed another “Petition for a Writ of
Mandamus” in this Court, in Misc. No. 12al9, with regard to the same petition for post­
conviction DNA testing, in which filing he asserted that Judge William A. Snoddy, to
whom his petition for post-conviction DNA testing was previously assigned, failed to “set
the matter in for a hearing,” within 120 days after service of the State’s answer to the
petition, as he was “required” to do, and
WHEREAS, Mr. Jackson requested that this Court “intervene” and “[supplement”
the circuit court’s order reassigning his petition for DNA testing by ordering Judge Pearson
to “acknowledge, accept and act in accordance with” Maryland Rule 4-709(d) prior to
ruling on the petition by “setting] the matter in for a hearing,” and
WHEREAS, the Court considered the second “Petition for a Writ of Mandamus”
and the circuit court docket entries and, on September 25, 2020, denied Mr. Jackson’s

second petition, and
WHEREAS, on August 27, 2020, Mr. Jackson filed a “Notice of Appeal,” which
was received in this Court on September 1,2020, captioned “In the Circuit Court for Prince
George’s County, Maryland,” Case No. CT021260X, indicating that an appeal to the Court
of Appeals was noted in the above-captioned case “concerning the Circuit Court’s Order
of Denial to Defendant’s petition for Md. Code Ann., Crim. Proc. 8-201 DNA
Postconviction Confirmatory ReTesting, and Analysis on two (2) ski masks[,]”and

WHEREAS, on November 25, 2020, the State of Maryland, Respondent, filed a
response to Mr. Jackson’s “Notice of Appeal,” advising that the ski masks in the above
case were previously subjected to PCR/STR DNA testing in advance of Mr. Jackson’s trial,
and
WHEREAS, Maryland Rule 4-709(a) provides that a hearing on a petition for DNA
testing is required, in pertinent part, where, “if, from the petition, answer, and any response,
the court finds that. . . (1).. . “there is or may be a reasonable probability that the testing
has the scientific potential to produce exculpatory or mitigating evidence relevant to a
claim of wrongful conviction or sentencing,” and

WHEREAS, Maryland Rule 4-709(b) provides that a court may deny a petition for
DNA testing without a hearing, in pertinent part, where “as a matter of law, the facts alleged
in the petition ... do not entitle the petitioner to relief under [CP § 8-201],” and

WHEREAS, the docket entries in Case No. CT021260X indicate that, on August
19, 2020, Judge Pearson denied Mr. Jackson’s petition for post-conviction DNA testing,
“pursuant to the [September 21, 2010] Order of [the circuit court] by the Honorable Judge
Nicholas E. Rattal finding that there are no facts nor allegations that a reasonable

probability exists that DNA testing has the scientific potential to produce exculpatory or
mitigating evidence because the DNA evidence was tested by a lab using the standards and
protocols that were in place at the time and resulted in inculpating the Defendant and not
exculpating the Defendant,” and

WHEREAS, the petition that is the basis of Mr. Jackson’s appeal sought to have
evidence introduced at his trial examined for hair and peeling skin fragments, and
otherwise sought to repeat DNA testing that was previously performed, the results of which
were introduced at his trial, and
WHEREAS, CP § 8-201 does not entitle a petitioner to have evidence examined
for hair or skin fragments or to have evidence previously subject to DNA testing subjected
to confirmatory retesting and, accordingly, does not provide for an appeal of a denial of
such a petition, and
WHEREAS, Maryland Rule 8-602(a) provides for dismissal of an appeal when the
appeal is not authorized by law, and
WHEREAS, the Court having again reviewed and considered Mr. Jackson’s filing,
the State’s response thereto, and the circuit court docket entries in Case No. CT021260X,
it is this 4th day of January, 2021

ORDERED, by the Court of Appeals of Maryland, that the “Notice of Appeal” be,
and it is hereby, DISMISSED.

/s/ Mary Ellen Barbera
Chief Judge

<:■>

C'l

:tr

:i:
;:i:

m

IN THE CIRCUIT COURT FOR PRINCE GEORGE’S COUNTY, MARYLAND

'iU

STATE OF MARYLAND,

CT021260X

V.

LAWRENCE E. JACKSON

ORDER OF COURT
UPON CONSIDERATION of the Defendant’s Pro Se Motion for MD Code Ann. Crim.
Proc. § 8-201 DNA Post Conviction Confirmatory Retesting and Analysis on Two (2) Black Ski
Masks and Attached Motion for a. Search and Production of Scientific Identification Evidence, it
is this

IK.

H

day of August, 2020, by the Circuit Court for Prince George’s County, Maryland,

ORDERED, that Defendant’s Motion, filed on October 27, 2017, be and hereby is
DENIED pursuant to the prior Order of this Court by the Honorable Judge Nicholas E. Rattal
finding that there are no facts nor allegations “that a reasonable probability exists that DNA testing
has the scientific potential to produce exculpatory or mitigating evidence” because the DNA
evidence “was tested by a lab using the standards and protocols that were in place at the time” and
resulted in “inculpating the Defendant, not exculpating the Defendant” (Exhibit 1).

IICIMEL R. PEARSON
udgfe, Seventh Judicial Circuit

"Appendix B,"

ENTERED:

^TVes

